4
I

C@OCKLE

2311 Douglas Street 7 E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga l B t ve f s contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-635

DONALD J. TRUMP, PETITIONER,

Vv.
CYRUS R. VANCE, JR., IN HIS OFFICIAL
CAPACITY AS DISTRICT ATTORNEY OF THE
COUNTY OF NEW YORK, ET AL.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of March, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF AMICI CURIAE OF VIRGINIA, CALIFORNIA,
CONNECTICUT, DELAWARE, THE DISTRICT OF COLUMBIA, HAWAII, ILLINOIS, MARYLAND,
MASSACHUSETTS, MICHIGAN, MINNESOTA, NEVADA, NEW JERSEY, NEW MEXICO, OREGON, AND
WASHINGTON IN SUPPORT OF RESPONDENTS in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:

MARK R. HERRING

TOBY J. HEYTENS

Attorney General Solicitor General
VICTORIA N. PEARSON Counsel of Record
Deputy Attorney General MARTINE E. CICCONI

MICHELLE S. KALLEN
Deputy Solicitors General
JESSICA MERRY SAMUELS
Assistant Solicitor General

ZACHARY R. GLUBIAK
John Marshall Fellow
OFFICE OF THE VIRGINIA
ATTORNEY GENERAL
202 North Ninth Street
Richmond, Virginia 23219
(804) 786-7240
solicitorgeneral@oag.state.va.us

Subscribed and sworn to before me this 4th day of March, 2020.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

hoo Ondia-h, Ghle

Affiant 39369

.9

    

 

GENERAL MOTARY-State of Webraska
A RENEE J. GOSS

‘My Comm. Exp. September &, 2023

   

Notary Public
 

Attorneys for Petitioner

Jay Alan Sekulow
Counsel of Record

Party name: Donald Trump

Constitutional Litigation and Advocacy Group, P.C.

1701 Pennsylvania Ave, NW, Ste. 200
Washington, DC 20006

jsekulow@claglaw.com

202-546-8890

 

Jerry D. Bernstein
Counsel of Record

 

Carey R. Dunne
Counsel of Record

Attorneys for Respondents

Blank Rome LLP
1271 Avenue of the Americas
New York, NY 10020

jbernstein@blankrome.com

Party name: Mazars USA LLP.

New York County District Attorney's Office
One Hogan Place
New York, NY 10013

dunnec@dany.nyc.gov

212-885-5511

212-335-9000

Party name: CYRUS R. VANCE, JR.., in his official capacity as district attorney of the County of New York

 
